<html>
<title> - AFGHANISTAN RECONSTRUCTION OVERSIGHT</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





                  AFGHANISTAN RECONSTRUCTION OVERSIGHT

=======================================================================

                                HEARING

                               BEFORE THE

SUBCOMMITTEE ON INTERNATIONAL ORGANIZATIONS, HUMAN RIGHTS AND OVERSIGHT

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 20, 2010

                               __________

                           Serial No. 111-96

                               __________

        Printed for the use of the Committee on Foreign Affairs




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
  56-558PDF               WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001










                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ELIOT L. ENGEL, New York             DONALD A. MANZULLO, Illinois
BILL DELAHUNT, Massachusetts         EDWARD R. ROYCE, California
GREGORY W. MEEKS, New York           RON PAUL, Texas
DIANE E. WATSON, California          JEFF FLAKE, Arizona
RUSS CARNAHAN, Missouri              MIKE PENCE, Indiana
ALBIO SIRES, New Jersey              JOE WILSON, South Carolina
GERALD E. CONNOLLY, Virginia         JOHN BOOZMAN, Arkansas
MICHAEL E. McMAHON, New York         J. GRESHAM BARRETT, South Carolina
THEODORE E. DEUTCH,                  CONNIE MACK, Florida
    Florida<greek-l>As of 5/6/       JEFF FORTENBERRY, Nebraska
    10 deg.                          MICHAEL T. McCAUL, Texas
JOHN S. TANNER, Tennessee            TED POE, Texas
GENE GREEN, Texas                    BOB INGLIS, South Carolina
LYNN WOOLSEY, California             GUS BILIRAKIS, Florida
SHEILA JACKSON LEE, Texas
BARBARA LEE, California
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                                 ------                                

              Subcommittee on International Organizations,
                       Human Rights and Oversight

                   RUSS CARNAHAN, Missouri, Chairman
BILL DELAHUNT, Massachusetts         DANA ROHRABACHER, California
KEITH ELLISON, Minnesota             RON PAUL, Texas
DONALD M. PAYNE, New Jersey          TED POE, Texas
VACANT<greek-l>Until 6/9/10 deg.
              Jerry Haldeman, Subcommittee Staff Director
          Paul Berkowitz, Republican Professional Staff Member
                    Mariana Maguire, Staff Associate













                            C O N T E N T S

                              ----------                              
                                                                   Page

                                WITNESS

Major General Arnold Fields (USMC-Retired), Inspector General, 
  Office of the Special Inspector General for Afghanistan 
  Reconstruction.................................................     7

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Russ Carnahan, a Representative in Congress from 
  the State of Missouri, and Chairman, Subcommittee on 
  International Organizations, Human Rights and Oversight: 
  Prepared statement.............................................     4
Major General Arnold Fields (USMC-Retired): Prepared statement...    10

                                APPENDIX

Hearing notice...................................................    42
Hearing minutes..................................................    43

 
                  AFGHANISTAN RECONSTRUCTION OVERSIGHT

                              ----------                              


                         THURSDAY, MAY 20, 2010

              House of Representatives,    
   Subcommittee on International Organizations,    
                            Human Rights and Oversight,    
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:31 a.m. in 
room 2172, Rayburn House Office Building, Hon. Russ Carnahan 
(chairman of the subcommittee) presiding.
    Mr. Carnahan. Good morning. I want to call the Subcommittee 
on International Organizations, Human Rights and Oversight to 
order this morning.
    I want to get started. We do have a time constraint this 
morning, as the joint session is going to convene at 11 
o'clock. And so we want to jump right into the hearing this 
morning.
    But before we get started, I would like to recognize some 
distinguished visitors who are joining us. A delegation from 
the Standing Committee on Defense from Pakistan is with us this 
morning. If you would please stand, and let us acknowledge our 
guests. Welcome.
    [Applause.]
    Mr. Carnahan. They are in Washington this week as guests of 
the House Democracy Partnership. Welcome.
    On Tuesday morning we marked a solemn occasion when a car 
bomb intercepted a U.S. convoy, and five U.S. soldiers died. 
The toll of America's dead in Afghanistan passed 1,000. With 
1,000 Americans dead and thousands more wounded, we must 
redouble our efforts to effectively utilize our resources, and 
build up Afghan forces so that our brave American troops can 
ultimately come home.
    From May 1 to May 3 I traveled to Kabul, Kandahar, and 
Islamabad as part of the House Foreign Affairs Committee trip 
to review security and reconstruction efforts underway in 
Afghanistan and Pakistan. Our delegation met with General 
McChrystal. I also met with Afghan President Karzai, along with 
American troops who are working hand-in-hand with the Afghan 
people to rebuild their nation after years of Taliban control.
    While I was away we were threatened on U.S. soil once 
again. The Times Square bomb plot reminded us all of the 
urgency and importance of our success in Afghanistan and 
Pakistan. We must do everything in our power at home and abroad 
to keep our citizens safe.
    On February 24 I convened my first hearing as chair of this 
subcommittee. The title: ``Hard Lessons Learned in Iraq, and 
Benchmarks for Future Reconstruction Efforts,'' with Special 
Inspector General for Iraq Reconstruction Stewart Bowen.
    Mr. Bowen conveyed a series of hard lessons to this 
committee. He estimated that $4 billion in waste had occurred 
during the Iraq program because of weak planning, repeated 
shifts in program direction, and poor management oversight. He 
went on and highlighted a lack of contract oversight to protect 
our tax dollars.
    In one striking example, a $2.5 billion police training 
contract, the largest ever in State Department's history, was 
being managed by only three contract officer representatives.
    Mr. Bowen described an ``adhocracy,'' with blurred chains 
of command between DOD, State, and USAID. He emphasized the 
lack of an institutional structure in human resources to 
effectively perform stabilization and reconstruction 
operations.
    Today I want to ask Major General Arnold Fields, Special 
Inspector General for Afghanistan Reconstruction, a simple 
question that has profound implications for protecting our 
citizens and safeguarding our tax dollars: Have we learned 
lessons? And if so, as we say in Missouri, show me.
    Last December President Obama announced that 30,000 
additional troops will be sent to Afghanistan. To accompany the 
troop increase, the State Department announced that it will 
immediately triple the number of civilian experts and advisors.
    President Obama's new funding request would bring U.S. 
support for the reconstruction of Afghanistan to $71 billion, 
far surpassing what the United States provided to rebuild 
Europe after World War II, and significantly more than what was 
spent in Iraq over the last 8 years. We need to ensure that 
these civilian resources are being spent effectively, and that 
waste, fraud, and abuse are being rooted out.
    The Government Accountability Office estimates that as of 
2010, approximately 107,000 contractors support U.S. and allied 
efforts in Afghanistan. Last month, General McChrystal 
questioned our reliance on private contractors. And he said, 
``I actually think we would be better to reduce the number of 
contractors involved. I think it doesn't save money. We have 
created in ourselves a dependency on contractors that I think 
is greater than it ought to be.'' We need to reduce our 
dependence on private contractors, and ensure there is adequate 
oversight and contract management in place so that tax dollars 
are not wasted.
    In order to protect taxpayer resources, we must also 
strengthen efforts to combat corruption. A recent U.N. survey 
estimates that Afghans paid $2.5 billion in bribes to 
government officials and members of the police force in 2009. 
In 2009, Afghanistan was ranked 179th out of 180 nations on 
Transparency International's Corruption Perceptions Index, a 
step down from 117 out of 159 in 2005.
    These are alarming numbers. The U.S. and other donors have 
pledged to increase the proportion of development aid delivered 
to the Afghan Government to 50 percent in the next 2 years.
    If we are going to work in partnership with the Afghan 
Government, we must ensure they are a reliable partner that 
will seriously address corruption issues.
    While we fight waste and corruption, we must also build 
Afghanistan's capacity to provide for its own security and 
training in equipping the Afghan National Security Forces. 
Current requirements call for the Afghan National Army to grow 
from 103,000, as of June 2009, to 171,000 by October 2011.
    The Afghan National Police will be boosted from 94,000 to 
134,000. We must ensure we are measuring not just the number of 
troops and police being trained, but the effectiveness in 
protecting Afghan civilians.
    We must also develop Afghan's economy. According to the 
U.N., about 80 percent of Afghanistan's population live in 
rural areas. We must do more to promote alternative 
development, build the Afghan agricultural sector, and reduce 
the production of opium.
    Missouri National Guard Agricultural Development teams, 
from my home state, have been deployed to the Nangarhar 
Province. Their work is being received well, pairing with 
civilians. Their background in farming has been critical, 
working with Afghan farmers to teach them sustainable farming 
practices and techniques.
    As we train the Afghan National Security Forces and develop 
the Afghan economy, we must also focus on women, who make up 60 
percent of the Afghanistan population. Under the Taliban's rule 
in Afghanistan, women were subjected to harsh inequalities, and 
were excluded from all forms of public life.
    Last week I moderated a roundtable with female ministers 
from the Afghan Government to discuss how the United States and 
Afghanistan can work together to empower women politically, 
economically, and socially.
    I look forward to hearing the testimony today on all of 
these critical areas from Major General Fields. We have a 
responsibility to our men and women in uniform, to the 
taxpayers of this country to make sure that we have a strict 
accounting on how resources are being spent. We cannot waste 
resources that our troops need to keep themselves safe and get 
the job done.
    I want to now recognize our ranking member, Representative 
Rohrabacher, for his opening statement.
    [The prepared statement of Mr. Carnahan 
follows:]Carnahan statement 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Rohrabacher. Thank you, Mr. Chairman. Yesterday I had 
the great honor to meet with our Inspector General, Major 
General Fields, and I was deeply moved by his dedication and 
understanding the magnitude of the challenge that he faces, 
which you just outlined very well.
    I do not see how we can expect any human being to meet this 
challenge alone, even as a great leader as a Marine Major 
General. He has demonstrated his leadership. This has got to be 
a team effort, or we will fail.
    We have failed in the past. We have failed in the past. And 
I remember as a young person, when I was 19 years old--and 
again, I was not in the military, but I found myself in 
Vietnam, and found myself confronting enormous corruption, 
beyond my imagination as a 19-year-old. And the sight of the 
gore of war and this corruption was quite, left a lasting 
imprint on me. And I left that country thinking that all those 
young men that I saw, who were wounded and dying, that their 
lives may have been spent in vain. But it was not because they 
were not fighting the battle, but because we were unable to 
control an out-of-control situation.
    I went home, and my father, I talked to my father about it. 
My father was a Marine, as General Fields. He wasn't quite 
your, you weren't quite his commanding officer, because I think 
he was out by the time you got in.
    But I told him about it. I told him that I thought that the 
chaotic situation and the incredible corruption that I saw 
would prevent us from prevailing. And he had some very wise 
words for me.
    He just said look, Dana, what do you think it looked like 
when I flew the first DC-3 into the Pusan Perimeter in Korea. 
And what do you think it was like in World War II and Korea? 
There is chaos in war; war comes with chaos. And those people, 
like the General, who have taken it upon themselves to try to 
bring some order to a situation in which people are losing 
their lives in great numbers, and bombs are going off, and no 
one knows if they are going to live to the next day, and 
sometimes their morals then are obliterated along with their 
bodies, it is an incredible job. But it is one that we need to 
succeed in.
    And we need--American people will lose faith in rebuilding 
Afghanistan if they believe that all this money that we are 
committing, or large chunks of it, are being siphoned off. And, 
just as we lost faith in the war in Vietnam and eventually lost 
that war, we could lose this conflict, as well.
    Let me note, our enemy, then, is not necessarily religious 
fanaticism, but the corruption of the human soul. And this is a 
great challenge, and a great challenge in this context.
    I am very honored that we have a man of integrity trying to 
tackle this. But General, you can't do it on your own. We are 
here to learn from you today about some of the successes, but 
also perhaps some of the things we must overcome in order to 
succeed.
    And I appreciate your leadership, Mr. Chairman. You take 
this issue very seriously; one can tell that by your opening 
statement. And so let us get on with the hearing, and see if we 
can come to some conclusions that will do some good.
    Mr. Carnahan. Thank you. And now we would like to turn to 
today's witness, Major General Arnold Fields. He is the special 
inspector general for Afghanistan reconstruction, a position he 
has held since July 2008. He is responsible for ensuring 
effective oversight of funds appropriated for the 
reconstruction of Afghanistan.
    Previously General Fields served as deputy director of the 
Africa Center for Strategic Studies at the Department of 
Defense, and as chief of staff at the Iraq Reconstruction 
Management Office in the U.S. Embassy in Baghdad, where he 
assisted in coordinating over $18 billion of U.S. appropriated 
funds for Iraq reconstruction.
    Major General Fields retired from the U.S. Marine Corps in 
January 2004, after 34 years of active military service. His 
decorations include the Distinguished Service Medal and the 
Defense Superior Service Medal.
    General Fields holds a master of arts degree in human 
resources management from Pepperdine University. He is also a 
graduate of the Army War College, the Marine Corps Command and 
Staff College, and the Marine Corps Amphibious Warfare School.
    Again, welcome. We are honored to have you here, and very 
much appreciate your many years of service.

   STATEMENT OF MAJOR GENERAL ARNOLD FIELDS (USMC-RETIRED), 
INSPECTOR GENERAL, OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR 
                   AFGHANISTAN RECONSTRUCTION

    Mr. Fields. Thank you, Mr. Chairman, Ranking Member 
Rohrabacher, and the members of the committee. Thank you very 
much for inviting me to discuss SIGIR's oversight mission, and 
the issues we have identified that must be addressed to improve 
the implementation of what is poised to become the largest 
overseas reconstruction effort in American history.
    In February of this year the President submitted a budget 
request that, if approved, will add about $20 billion to the 
$51 billion Congress has appropriated for the reconstruction of 
Afghanistan since 2002. SIGIR was stood up to bring focused 
oversight to this money. And we are doing so by providing a 
broad range of oversight to the reconstruction activities that 
are funded through, and implemented by, multiple agencies.
    Over the last 12 months, SIGIR has produced 23 reports. We 
have seven reports that are currently in their final stages, 
and another 10 audits that are underway. Our work has 
identified several issues that hamper the reconstruction effort 
in Afghanistan. Let me talk about a few of them.
    Reviews of infrastructure contracts have found serious 
construction problems, due in part to a lack of quality 
control. Agencies continue to suffer from a shortage of 
qualified contracting officials, and U.S. agencies lack a full 
picture of reconstruction projects in Afghanistan.
    I am particularly concerned about three issues that our 
auditors have identified over the last year: Inadequate 
planning, inadequate sustainability, and inadequate 
accountability. A couple of examples. SIGIR audits found 
obsolete planning documents in the energy and security sectors. 
We issued two audit reports of U.S.-funded construction 
contracts to build Afghanistan National Army garrisons. The 
United States has invested more than $25 billion, nearly half 
of all reconstruction dollars appropriated to date, to train 
and equip the Afghanistan security forces.
    U.S. military officials were unable to provide us with an 
updated master plan for the facilities to house and train the 
forces representing the Afghanistan security sector.
    And a bit about metrics. As part of the planning process, 
implementing agencies must establish reliable metrics to 
measure progress. SIGIR has been conducting an audit of the 
capability milestones, or CM ratings system, the primary metric 
used to monitor development progress of fielded Afghanistan 
security forces and units.
    The ability to accurately measure the abilities of the 
Afghan Army and Police is absolutely critical to the U.S. 
strategy in Afghanistan. Our audit will, it is yet to be 
released, describe weaknesses that have affected the 
reliability of the rating system. And certainly we will make 
recommendations.
    This audit has had an impact already, given the outbrief 
that we have already provided to General McChrystal, as well as 
to certain Members of Congress. It has caused the Defense 
Department to acknowledge limitations of the rating system.
    The International Security Assistance Force, or ISAF, Joint 
Command is replacing the rating system with a new unit, a new 
units level assessment system.
    One of the most serious development challenges anywhere is 
creating sustainable programs. Our audits in the energy and 
security sectors have found that the Afghan Government does not 
have the financial resources to operate and maintain new 
infrastructure. Therefore, the United States has funded 
operations and maintenance contracts for the next several 
years.
    While this solves a short-term problem, it does not address 
the long-term issue of sustainability.
    Under the new strategy, the international community, in 
partnership with the Afghan Government, is committed to 
increasing both the Afghan National Army and the Afghan 
National Police forces. An important question will be how these 
forces can be sustained over time.
    The United States and international donor community are 
planning to provide more development funding through Afghan 
institutions. SIGIR certainly supports giving Afghans a greater 
say in how money is spent. But we also believe it is vital that 
Afghans be held accountable for U.S. funds channeled through 
the Afghan institutions.
    Therefore, SIGIR has begun assessing, one, what the United 
States and other donors are doing to build the capacity of 
Afghanistan institutions to deter corruption and strengthen the 
rule of law. And the extent to which various national and local 
institutions have the systems in place to exert internal 
control, and demonstrate accountability for donor funds.
    This work is having an impact. For example, the 
international community and the Afghan Government have taken 
steps to implement many of SIGIR's, our organization's, 
recommendations to strengthen the principal Afghanistan agency 
responsible for combating corruption. SIGIR is reviewing the 
salary support that the U.S. Government is providing for Afghan 
civil servants.
    We have also begun an assessment of the Afghanistan 
National Solidarity Program, which has received more than $900 
million in donor assistance to fund small infrastructure 
programs. SIGIR's legislation gives it a special responsibility 
to provide independent and objective assessments of every 
aspect of the reconstruction effort to Congress and to the 
Secretaries of State and Defense.
    Last month SIGIR began a review of the implementation of 
the inter-agency civilian surge. This audit seeks to identify 
the number and types of personnel provided to implement the 
civilian surge. It will also evaluate the extent to which 
civilians in the field are being effectively utilized to 
achieve strategic goals.
    Now a bit about SIGIR. We are steadily building our staff, 
and are prepared to provide the expanded oversight necessary to 
detect and deter waste, fraud, and abuse of the increasing U.S. 
funding for this reconstruction effort.
    We currently have 79 employees, and plan to reach our goal 
of 132 during Fiscal Year 2011. We are in negotiations with the 
U.S. Embassy to increase the number of auditors and 
investigators present at the Embassy. Currently we have 20 
full-time, for a year, investigators and auditors, with a small 
support staff, located at the Embassy in Kabul, Afghanistan.
    The United States, together with the international 
community, is committed to a strategy that will put Afghans in 
control of their future. The President is asking for a nearly 
40 percent increase in U.S. funding.
    However, the success of this strategy depends not only on 
how the United States implements its reconstruction program; it 
also depends on the actions of the Afghan Government. 
Afghanistan must do its part to make sure that the human and 
financial resources provided for its reconstruction are not 
wasted.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Fields 
follows:]Arnold Fields 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Carnahan. Thank you. I want to recognize myself for 5 
minutes. And I guess I want to start with a look back.
    No special IG was created for Afghanistan until 2008. That 
was $38 billion and 7 years into the program. And given the 
massive level of waste, fraud, and abuse, and incredible levels 
of corruption in Afghanistan, I guess, can you assess the time 
before the special IG got up and running in terms of evaluating 
that time period?
    And then, of course, we want to talk about from that time 
forward. But can you assess that time before the Inspector 
General's Office got up and running?
    Mr. Fields. Thank you, Mr. Chairman. First I will say that 
it was a mistake; that we took too long to stand up this office 
of Special Inspector General.
    I applaud, however, my counterpart, SIGIR, under the 
current leadership of Mr. Stuart Bowen, who largely, almost 
from the start, was stood up to provide the same oversight over 
Iraq spending that my office is providing for Afghanistan. So 
it took us almost 8 years into this very expensive and very 
serious and pivotal operation in Afghanistan to bring about the 
organization that I am currently privileged to represent.
    So we are going back, however, commensurate with our 
legislation and we are looking at what did, in fact, in 
retrospect, took place between 2002 and actually the point at 
which we stood our office up.
    In so doing, we are conducting forensic investigations to 
determine who may have wasted, frauded, or abused the American 
taxpayer dollar during this period during which this office was 
not stood up.
    Meanwhile, the offices of the Inspector General of the 
Department of Defense, the Department of State, and USAID were, 
in fact, expected to provide the oversight in the absence of 
such an organization as a Special Inspector General for 
Afghanistan.
    Mr. Carnahan. Thank you. And I guess to drill down more 
specifically, have you evaluated that time period, looking 
back, in terms of the amount of money that was wasted? I guess, 
is number one.
    And number two, if you could address some of the criminal 
prosecutions for fraud that were mentioned in your report.
    Mr. Fields. Thank you, Mr. Chairman. We are, by way of the 
forensic effort, going back and determining the extent to which 
funds were wasted during the period in advance of this office 
having been stood up. We don't have figures, sir, at this time 
to provide to this subcommittee. But we will determine that 
over time.
    Initial indications are, though, that we have wasted money. 
I am not prepared today to put a figure on it, in the millions 
or billions, but I would hazard, sir, that it is in the 
millions, and perhaps even in the billions, that we have wasted 
and/or frauded the American taxpayer out of money during the 
period between 2002 and 2008.
    Mr. Carnahan. In the process to come to a more precise 
number on that, tell me what that process is, and when you 
think we could get some better numbers.
    Mr. Fields. Yes, sir. We are, as I mentioned, conducting 
the forensics. This essentially means we are boring down into 
various documents and procedures and spending that took place 
over about an 8-year period.
    We will review the contractual arrangements of folks 
involved in that spending for that period of time. And as a 
result of that, we hope that we will be able to determine if 
there was, in fact, waste, fraud and abuse, and indeed, who 
was----
    Mr. Carnahan. Excuse me for interrupting. Just really 
quickly, because my time is about to expire, if you could 
briefly mention the criminal prosecutions and some of the 
monies that have been recovered.
    Mr. Fields. Yes, sir. Thus far, we have been a part of the 
joint community responsible for finding criminal activity. And 
as part of that mechanism, which is ongoing, and of which we 
are members, we have at least sent two folks to jail, or been a 
part of the process that in fact has resulted in two 
Afghanistan-Americans having been sent to jail. As a part of 
that, we have identified about $2 million associated with their 
activity.
    Mr. Carnahan. I am going to have to cut you off there. I am 
sorry, but my time is up, and I am going to yield 5 minutes to 
Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you. Well, as I mentioned in my 
opening statement, you face quite a challenge. And your 
testimony today has only underscored that point.
    In looking back, it is a little breathtaking to understand 
that when we rushed into Iraq, how unprepared we were to handle 
the specific things that needed to be done in order for us to 
succeed. And here we are still in Iraq.
    And then to understand, as it appears now from what you are 
saying and what we have heard, and what our gut told us at the 
time, was that going into Iraq took our focus away from 
Afghanistan. And so for all of those years, we have not been 
doing the job we needed to do there, either.
    So one area of where we were not able to competently do 
what is necessary to be done, actually the magnitude of that 
challenge drew away from what we could do in Afghanistan. Let 
me note that in the 1990s, I was somewhat of a lone voice here, 
talking about Afghanistan.
    As you know, I spent time in Afghanistan with the 
Mujahideen when they were fighting the Russians. And also that 
I spent considerable time and effort during the Reagan White 
House years, when I worked in Reagan's White House, to make 
sure that we were supporting people who were fighting the 
Soviet Empire, as the strategy to eliminate that.
    Well, the Afghans, more than anyone else, they gave us a 
victory in the Cold War. And a victory in the Cold War simply 
meant that the Soviet Communism disappeared from the planet. 
And I realized, because I had spent time in Afghanistan, how 
much we owed to the Afghan people. And they bore the brunt of 
that effort. And yet, we abandoned them. After the Soviet Union 
dissolved, we abandoned them, and did not help them rebuild 
their country, as we should have. And they ended up with these 
radical forces at play.
    And then with 9/11, and I might add during the time period 
of the 1990s, I was here calling for us to make sure that we 
did right by them, and that it would hurt us if we did not. And 
here, it did.
    But here again, what happened? After 9/11, with 200 
American soldiers on the ground, and several, perhaps 20,000, 
30,000 members of the Northern Alliance, we drove the Taliban 
and al Qaeda out of Afghanistan. And at one point, when they 
had been driven out, 90 percent of the people in the country 
were positive toward us.
    Again, it was our, it was, the ball was in our court. And 
again, we dropped the ball. And your testimony today is just 
underscoring that.
    That does not mean that we should not move forward now, and 
see what we can do, to the best of our ability, as a team, to 
try to see if we can, number one, repay that debt to the Afghan 
people. And by doing so, undercut this religious fanaticism on 
the part of Islamic extremists that have targeted the United 
States.
    General, I am going to read your report. I have not read it 
yet. Let me just ask, when you talk about corruption, are we 
talking about Americans or Afghans who are basically 
responsible for the corruption level we are talking about?
    Mr. Fields. Thank you, sir. When we look at corruption, we 
are looking at the whole enchilada. We are looking at both 
sides, the American side as well as the Afghan side.
    Currently, given that most of the money, probably as much 
as 80 percent of it, that we have invested or are investing in 
Afghanistan is not channeled through the Government of 
Afghanistan, it is channeled through the implementing agencies 
of the United States; principally, the Department of Defense 
and the Department of State. And then from there to various 
contractors and other entities who help to make use of this 
money for the purposes for which it was, in fact, appropriated.
    So the work of our audit, as well as our investigations, 
considers both sides. With some degree of emphasis, of course, 
on the U.S. side and what we are doing to properly prevent 
waste, fraud, and abuse.
    Mr. Rohrabacher. Mr. Chairman, I think this subject 
actually deserves a lot more time than we are going to be able 
to give it today. And I would suggest to you that we bring the 
General back some time soon, after we have studied your 
reports, and be able to--there are some areas that I would 
really like to get into very deeply here. And we do not have 
the time to do it today.
    There is a major address before Congress, before the 
President of Mexico, I believe, that we are going to. And it 
would seem to me that we should--for example, I would like to 
ask the General's analysis of whether the military teams, the 
PRTs, whether that is the way that we should focus on 
delivering aid, and what we have found are the effectiveness of 
those teams, as compared to the contractors at the local level.
    And there are a number of questions specifically like that, 
that need to be addressed. And I would hope that we can bring 
him back.
    Mr. Carnahan. I concur. And our point today is I think to 
give us an overview of the work that the Inspector General is 
doing. And certainly I expect there is going to be a number of 
specific issues we are going to want to dig into. So I look 
forward to working with you on that.
    Now I want to recognize Mr. Ellison for 5 minutes.
    Mr. Ellison. Thank you, Mr. Chairman. And thank you, 
General, for being here and sharing your illuminating insights 
about these issues we are facing here in reconstruction of 
Afghanistan.
    Last month General McChrystal questioned our reliance on 
private contractors in Afghanistan. In fact, he is quoted to 
have said the following. This is him. ``I actually think we 
would be better to reduce the number of contractors involved.'' 
He went on to say, ``I think it doesn't save money.'' And then 
he further elaborated by saying, ``We have created in ourselves 
a dependency on contractors that I think is greater than it 
ought to be.''
    According to the GAO, in early 2010 there was approximately 
107,000 contractors supporting the United States and allied 
efforts in Afghanistan.
    I guess my question is, do you share General McChrystal's 
concerns expressed in these quotes? Or how do you react to 
them?
    Mr. Fields. Thank you very much, sir. I think what General 
McChrystal is saying is generally true, from the standpoint of 
our dependence on the contracting community.
    But we also have been engaged with contractors for quite 
some time. This is not the first time, in a conflict, in the 
interest of the strategic direction of the United States, that 
we have had such a dependence on contractors. We did it during 
World War II, Korea, certainly Vietnam, and now Afghanistan. 
And of course, in Iraq, as well.
    But I do feel, and agree with General McChrystal, that we 
have come to depend too much on contractors. But there is a 
liability to this.
    We either build the resources that are now being provided 
by the contracting community within the defense mechanism and 
structure, or we continue to depend upon contractors.
    Mr. Ellison. Could I follow up on that, general?
    Mr. Fields. Absolutely, sir.
    Mr. Ellison. Well, I mean, we are paying these contractors 
quite a bit of money. So if the U.S. military developed 
capacity to perform these same functions internally, isn't it 
likely that we could do it cheaper?
    Mr. Fields. I would say, sir, that some aspects of what we 
are currently doing could be done cheaper if the resources 
were, in fact, a part of the uniform defense establishment. But 
I am not inclined to say that that would necessarily, in the 
long run, be in the best interest of the American taxpayer.
    I do feel, though, that we could perhaps reduce our 
dependency on contractors by taking more full advantage of 
resources that we could have within the more conventional 
establishment of the U.S. military environment.
    Mr. Ellison. But General, if we are spending, say, $1 to 
hire a contractor to do any given task, and if that task is 
necessary to be done; and given some of the concerns we have 
had about the expense of contractors and the difficulty of 
imposing accountability; I mean, the dollar to the contractor 
and a dollar spent internally is the same dollar, isn't it?
    I mean, isn't it conceivable that we could do better by--I 
mean, where would we not do better if we were to do, to build 
capacity internally? Because we are spending the same money 
anyway, either way.
    Mr. Fields. Well, let me say, sir, that the resources that 
the contracting community brings to a very complex environment, 
such as Afghanistan, is good. I do not wish to characterize all 
contractors as out to take advantage of the American taxpayer.
    Yes, they are businesses; and certainly there is a profit 
margin that they seek to find. But having done this work now 
for the past coming up on 2 years, I have considerable respect 
for the contracting community. They are operating in a very 
dangerous environment, and folks are not necessarily lining up 
to go to the edge of the battlefield, if you will, such as our 
contractors. Even folks that I would wish to hire into my 
organization, with the intent to spend quite a bit of time in 
dangerous places in corners of Afghanistan, it is difficult for 
me, as well.
    There are contractors being killed on the battlefield out 
there. And so it is very complex.
    Mr. Ellison. General, certainly we want to thank any, all 
the contractors for their meritorious service. But this is not 
really a question of are contractors good people or are they 
bad people. It is a question of how do we get the most out of 
our dollars spent as American taxpayers, and might we do these 
things more cost-effectively internally? And might we also have 
a better ability to demand accountability if they are done 
internally? So those are the points.
    And I just want to agree with you that people who have gone 
over and serve as contractors have done good work, and 
certainly we don't want to denigrate their work. But I think 
some of these issues remain important. And I thank you for your 
testimony today.
    Mr. Fields. Thank you very much, sir.
    Mr. Carnahan. I want to thank the gentleman. And while we 
still have additional time, I think we are just going to do a 
second round of questions.
    And I want to follow up where I left off. We really didn't 
get time to get your full answer, I think, in terms of the look 
back, before the Special Inspector General's Office was stood 
up.
    Again, give me a description of the process that is in 
place to evaluate that, and a timeframe when you think we will 
have some better answers. Because as we evaluate these 
additional investments going forward, that is the kind of 
information that we need.
    Mr. Fields. Thank you, Mr. Chairman. I am pleased to have 
with me at the table today, and in the room, two of my 
principal staff: My assistant inspector general and acting 
deputy inspector general for audits, Mr. John Brummet. He is a 
career member, or former career member of the Government 
Accountability Office, GAO.
    And I also have with me the assistant inspector general for 
investigations, a career member of the Federal Bureau of 
Investigations, Mr. Ray DiNunzio.
    I would like to respectfully ask if Mr. John Brummet will 
roll in on that question of looking back, particularly with 
emphasis on the forensic work that he and his auditors are 
doing at this time.
    Mr. Carnahan. I recognize him to do so. And again, if you 
could give us a description of the process and the timeline, 
again as we look at these substantial new investments going 
forward. I think that is a very critical part of understanding 
what we have done in the past.
    Mr. Brummet. Yes, Mr. Chairman. It is very hard to look 
back. It would have been much easier if we had been set up a 
long time ago. When we look back, it is hard to find the 
documentation. It is hard to find the people responsible for 
the various programs because of the length of tour in 
Afghanistan. So looking back is a difficult thing.
    What we are trying to do is gather transaction data from 
all the reconstruction programs, and use some data-mining 
techniques to identify potential anomalies, like duplicate 
payments, or instances where the person that approved the 
payment is the same person that received the payment, to get 
suspect transactions. And then, through audit and through 
investigations, try to track those down.
    But it is a difficult process. And getting precision in 
terms of the amount of wasted or funds subject to fraud will be 
a very, very difficult task.
    Mr. Carnahan. I think that I cannot even imagine how 
difficult that would be. But having all of us acknowledge that 
it is difficult, you know, when do you think we could have--
again, I know we are not going to get precision on this. But 
when do you think we could get some even ballpark ideas on 
where that stands, looking back?
    Mr. Brummet. I would think that over the course of the next 
6 months, as we complete another 10 to 12 audit reports, we 
will be in a much better position to make estimates along the 
lines that Mr. Bowen was able to make after he had spent 5 
years of doing audits. And I think the figure on our estimate 
of waste will be considerable.
    Mr. Carnahan. Well, that will be very important, again, 
going forward. Now I want to flip to the present. And in your 
report you talk about the new funding that has been requested; 
three fourths of this new budget request is going for training 
the Afghan National Army and Police.
    And I think everyone, from our military leaders on the 
ground to people here on the Hill, believe that the success on 
the ground is critical, that military and police in Afghanistan 
be stood up. But it is also critical to being able to get our 
troops home.
    And so I would like you to address the police training, 
military training aspect. And in particular, you mentioned the 
Afghanistan Contract and Audit Office and problems there with 
their having insufficient independence, authority, and 
qualified staff to actually do their job.
    If we are spending these large amounts of money on 
something when clearly there is a consensus that this is 
something that has to be done, and done well, we need to be 
able to track how that is going. And again, part of that is 
money, as you mentioned, but I would also like you to address 
the capability milestone rating system, which can really talk 
about the effectiveness, and when you expect that report to be 
prepared.
    Because again, I think going forward, for considering these 
new budget requests, that is going to be critical.
    Mr. Fields. Thank you, Mr. Chairman. Let me address the 
capability milestones report. That, to answer part of your 
question, sir, we hope to have completed that report and 
released it publicly by this June. So next month that report 
should be posted on our Web site and briefed, as appropriate to 
the leadership here in the Congress.
    That report will identify some serious issues. The most 
serious is that we have been using for years now this 
capability milestone, or CM, ratings process to determine where 
it was, where it is that the Afghanistan Security Forces stand, 
particularly and specifically Afghanistan National Army, as 
well as the Afghanistan National Police, and their ability to 
do what they are being stood up to do, and for which the 
American taxpayer has thus far essentially spent about $27 
billion, with another $14.2 billion to come as a part of the 
President's most recent request for additional funds to train 
the security apparatus of Afghanistan.
    We found flaws in this CM rating or capability milestone 
rating scheme. As I mentioned in my opening statement, this 
flaw or these flaws have been recognized by the most senior 
leadership of our military forces and trainers in Afghanistan, 
and they are taking corrective action to remedy this.
    But I am amazed that really, over the period that we have 
been spending so much money training and equipping this force, 
that we have just come to realize that we had an inadequate 
system of measuring their progress.
    In terms of the CAO, that is the Control and Audit Office, 
very similar to our Government Accountability Office here in 
the United States, and the High Office of Oversight, or the 
HOO. Those are two mechanisms within the Government of 
Afghanistan designed to fight corruption.
    We believe, of course, that in order to be successful, both 
in terms of standing up the security forces, we have to have 
good systems, institutions in place in Afghanistan. The CAO and 
the HOO are very significant in that regard.
    Our audit recently released both for the CAO and the HOO 
suggest that those offices are currently inadequate to do that 
for which they have been put in place. And the Embassy in Kabul 
is working with the Government of Afghanistan, as well as with 
other representatives of the international community, to remedy 
this.
    And I want to point out that President Karzai has taken 
some action himself to help remedy this, by decreeing that this 
office, specifically the High Office of Oversight, be provided 
more independence, so that it can really do its work.
    Mr. Carnahan. Thank you. Now I want to yield 5 minutes to 
Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. And 
again, I think we are going to have to, in the weeks ahead, we 
might have to have the General back. In the months ahead we 
might have to have the General back. And I am very happy that 
you are there, General.
    If we are going to talk about contractors, I just thought I 
would go on the record, because it seems to be a lot of focus 
on contractors here, a lot of people want to vilify contractors 
because of a natural inclination to suggest that, well, if 
there is a problem, we are going to blame it on somebody. We 
don't want to blame it on the uniformed military people; we 
will blame it on the contractors.
    I think they, by and large, the contractors have done a 
good job. But we must make sure that they are not corrupt, and 
they are not going there and just exploiting a situation for 
profit.
    But let me just say that there are people who deserve our 
thanks, and deserve to be honored, among these contractors. 
Blackwater, for example, has been a contractor that has been 
vilified. And I would say the vilification of Blackwater and 
contractors like Blackwater is a black mark on a lot of people 
in this town. Blackwater has lost a lot of men in Iraq and 
Afghanistan.
    Just several months ago, when a CIA post was blown up, and 
we said that we lost, it was reported that six CIA operatives 
were lost in that explosion. Well, in fact, there weren't eight 
operatives lost; there were six Blackwater contractors who were 
lost, along with two CIA operatives. And that didn't happen to 
get reported.
    And they have done a good job. Blackwater has done a 
terrific job. Yet we see that organization targeted to try to 
find any little thing that they have done, to try to bring them 
down. That is outrageous, and I think the American people need 
to know the sacrifices that these, almost all the Blackwater 
people are former Special Forces, and I might add Marines, who 
are retired, and who are now using their expertise to try to 
accomplish our goals.
    So I think the vilification of the contractors is 
misplaced, and something that we should really think about. And 
these people, most of them, most of them deserve our praise.
    Now, why do we use contractors? Just to note, if a 
contractor can cook food for our troops, it is actually more 
cost-effective to have a cook, who is not in uniform and is not 
a military person, to be there cooking for our troops and 
providing food services for our troops. Because it costs us $1 
million per person, and per uniformed military personnel in 
that combat area, it is costing $1 million a year.
    Well, it shouldn't cost us $1 million a year in order to 
provide a cook. But perhaps putting someone, someone who is 
willing to go into harm's way, and our soldiers and Marines, 
that is the type of expenditure that we have to have.
    General, I want to get back to--okay, there is my defense 
of the contractors. I think it is necessary. I think that they 
are being abused, and people should be ashamed that they are 
abusing some of these heroic people, like Blackwater, who have 
done great jobs for us.
    Now, with that said, I would like to go back to this 
initial question about comparing when the military itself is 
able to involve itself in economy-building operations, versus 
having aid, USAID and other agencies, and contractors coming in 
to do that job.
    I am just requesting you now--I don't want you to do this 
off the top of your head--I would like you to prepare a report 
for this committee comparing the effectiveness and letting us 
know the effectiveness of the PRTs, which are military units, 
in Afghanistan, as compared to perhaps the way, the operation 
of non, of contractors and other elements of our Government, in 
terms of building up local economy, and the success they have 
had.
    So I am going to ask you to do that for this committee. And 
it wouldn't have to be an extensive report, but just a general 
analysis of how that is working.
    And I see that my time is up now, Mr. Chairman. I hope that 
if we have time for another round, I do have a couple more 
questions. Thank you.
    Mr. Carnahan. Thank you. And I wanted to, in my next round 
of questions, get into, again looking forward with some of the 
activities you mentioned. Of course, the Donor Conference in 
London. We have the upcoming peace jirga on the 29th of this 
month, and the Kabul conference in July.
    Can you address for the committee some of your expectations 
from those conferences? And in particular, the importance of 
having really a broad-base involvement of men and women in 
those conferences, and how that is going to improve the 
effectiveness of what we are able to do on the ground?
    Mr. Fields. Sir, I applaud the fact that these conferences 
are, in fact, taking place. Much of the work that will be done 
at these forthcoming conferences really is really borne out of 
the 28 January conference hosted in London in support of the 
reconstruction efforts in Afghanistan.
    There were certain decisions made at that conference, and 
now the international community is coming together to assist 
the Government of Afghanistan in making sure that those 
recommendations agreed upon are, in fact, put in place.
    In terms of the involvement of women, I don't anticipate 
that the level of involvement of women will be at the level at 
which I think the American people would be pleased to see. We 
can reflect on audit work that we have done, which I think is 
an example of what I am trying to say here, regarding women in 
Afghanistan. We conducted an audit associated with the recent 
elections, and while not completely disenfranchised, 
nonetheless, the women did not fare well in terms of the basic 
rights for voting, and expectations as would otherwise be 
expected among the male population of Afghanistan.
    We are also conducting an audit to determine what has 
happened to about three quarters of a billion dollars, Mr. 
Chairman, that this Congress has made available for women and 
girls in Afghanistan during the course of the past several 
years. We are looking to find if there is evidence that the 
money was, first of all, used for the purposes for which it was 
made available; and to what extent has it helped to advance 
women and girls in Afghanistan.
    The extent to which that money, perhaps, and other donor 
contributions have been effective will certainly be reflected 
in the extent to which women participate, to any influential 
level, in these forthcoming conferences.
    Mr. Carnahan. Let me ask about the development of the 
agricultural sector. During our visits a few weeks ago, it was 
one of the things that was highlighted, that 80 percent of the 
country is rural and agriculturally driven. They have great 
opportunities in developing pomegranates, fruits, nuts, grapes, 
and that that is going to be critical to their economic growth.
    We heard some good success stories about the way some of 
our civilian teams were partnering with farmers. Also that the 
farm income in the areas that we visited, in Kandahar, had 
tripled in the last year. So there is some good progress being 
made.
    Can you talk about your evaluation of how the agricultural 
sector is developing? And in particular, as was mentioned by 
Mr. Rohrabacher, about the success of some of the PRTs? But 
also, the National Guard Agricultural Development Teams.
    Mr. Fields. Thank you, Mr. Chairman. The agriculture sector 
is a very important part of the strategy that the United 
States, in conjunction with the international community, is 
implementing in Afghanistan. And you may know, sir, and the 
committee members may know that it consists basically of two 
principal elements, one of which is to help shore up the 
Ministry of Agriculture in Afghanistan. And the other component 
is to shore up agriculture itself among the 34 provinces so 
that they help to encourage or expand job opportunities which 
our Government feels is important to helping to bring this 
reconstruction effort and this conflict to closure.
    We are poised to do some work in this area. And I would 
like to ask Mr. Brummet if he would comment on that, sir.
    Mr. Carnahan. I recognize you to do so.
    Mr. Brummet. We have not done any audit work on the ag 
sector. However, I do have a team that has been in Jalalabad in 
Nangarhar Province, and they met with the Agricultural 
Development Team there. And we will be going in I believe next 
month to do work at the provincial level.
    I would say that looking at the ag sector, in a 
comprehensive way, is something that needs to be done because 
we have USAID spending a lot of money. We have the U.S. 
military with the Agricultural Development Team spending a lot 
of money. We have USDA, Department of Agriculture, with about 
40 advisors, throughout the country. And we have the State 
Department that is working on counter-drug activities, which 
involve things like alternative crops and that type of thing.
    What we found, looking at other sectors--namely, the energy 
sector--is it is very, very difficult, when you have so many 
U.S. agencies involved, and also the international donor 
community, to have a coordinated effort. And what we found in 
the energy sector was lack of coordination, lack of planning, 
lack of common standards. And I suspect we might find some of 
the same problems in looking at the agriculture sector.
    So we will be starting that work probably within 6 to 8 
weeks. And we will have a report out on the ag sector I hope by 
the end of the year.
    Mr. Carnahan. Thank you. Mr. Rohrabacher.
    Mr. Rohrabacher. Amazing we are talking about this 8 years 
into the war. It is unbelievable.
    Let me just note, Mr. Chairman, that quite often people 
will take a look at projects, and suggest that there might be 
waste involved in it because they are unsuccessful.
    The lack of success in this particular situation, as in 
other overseas conflicts, is usually not traced back just to 
corruption, and not just to waste, but to a flawed strategy. 
And you cannot have a strategy or a policy that is 
fundamentally in conflict with the tradition or culture of the 
country that you are in, and expect that it will succeed.
    And it may look like waste or fraud from a distance. For 
example, when we are talking about creating the, standing up 
the Army of Afghanistan, and standing up the National Police in 
Afghanistan.
    Now, correct me if I am wrong, General, you may know about 
this, but there has been a huge desertion rate among the people 
that we have already trained. Now, what does that reflect? Does 
it reflect waste? It doesn't reflect waste.
    What it reflects is the fact that Afghanistan has the most 
decentralized tribal and provincial and ethnic culture of any 
other country in the world. And trying to create an Afghanistan 
that is controlled or dominated by Kabul, and governed by 
Kabul, the capitol city, isn't going to happen. It isn't going 
to happen. It is totally contrary to their whole tradition.
    There has never been an Afghanistan that was dominated by 
the capitol cities. Zahirshah, the King, there for 40 years, 
basically didn't rule the country. He simply was the godfather 
or the father figure of the country. But the governance was 
going down at the tribal level, at the village level, at the 
family level, at the provincial level. And as we try to create 
this image of a modern country which has a central army, we 
will not succeed. And it may look like waste, but it isn't.
    And let me just note, the great State Department planners 
who forced the current constitution on Afghanistan, after the 
Taliban were driven out, created and developed a constitution 
that is the most centralized-power constitution of any country 
that I know of.
    Mr. Chairman, the constitution in Afghanistan does not have 
the power to the people, so to speak. I mean, down at the 
village level. In fact, the police are the National Police 
Force. Does that sound like it is consistent with a 
decentralized society? A national police force? That may be 
good in France, but it is not good in Afghanistan. And if you 
appoint the heads of police from Kabul, you are asking for 
corruption. All right?
    So we have a flawed policy that looks like corruption, but 
it is a flawed policy. We aren't going to have--and the 
provincial leaders, I believe, are appointed by Kabul, under 
their constitution. How is that going to succeed in a country 
that prides itself on ethnic lines and in tribal lines, and has 
a decentralized culture? It won't work.
    So General, you have got your job cut out for you. And I 
would hope that we can, as we discuss the waste that is going 
on, that we can try to delineate where that fraud and that 
waste is that is actual fraud and waste, but not just the 
result of a flawed policy.
    You, General, are not going to be able to correct the 
flawed policy. You are going to be able to point out to us and 
to everybody else how things aren't working, or there is 
corruption involved. And we are going to pay a lot of attention 
to that.
    But Mr. Chairman, we need to realize that there are some 
fundamental structures that have been put in place that will 
not work. And I think that, as a result also of a lack of 
attention, as you have already brought out in this hearing, Mr. 
Chairman, the lack of attention to exactly what was going on in 
Afghanistan. And I believe that the incompetence level of what 
we have been trying to do in Iraq and Afghanistan is a major 
issue. But especially in Afghanistan, the basic policy and 
foundation that we have been working with is something that 
also needs to be looked at, and needs to be corrected if we 
can.
    Mr. Rohrabacher. General, I am looking forward to your 
report. When I was, over the years as I visited Afghanistan, I 
have noted the good work of the various PRT groups that are not 
totally military, but at least the military officers I think 
are playing the dominant role in the PRTs. So I am looking 
forward to that report from you.
    And with that said, I guess I didn't ask a question. 
General, my question is, what do you think about that?
    [Laughter.]
    Mr. Fields. Thank you, sir. We comment on policy issues 
when requested. And as we see a policy issue having an impact 
on our principal work, providing oversight of that 51, and to 
be more exact, $51.5 billion that the U.S. taxpayer has already 
invested in Afghanistan.
    The issues that you mentioned, sir, are certainly issues 
that need to be addressed. And I am confident that, in this 
Congress and within the administration, those matters will be 
sufficiently addressed. And wherever it is that our work, in 
terms of providing the oversight, crosses those issues, then we 
will certainly provide our advice and counsel as we see them 
from our vantage point.
    In reference to the PRTs, sir, and their impact, I am 
pleased to say that I have thus far visited about half of the 
PRTs, representing about 15 countries, rather, 15 provinces of 
Afghanistan.
    I have yet to find a PRT commander who is inadequate or 
incompetent. I have been impressed by the leadership, both on 
the U.S. side, as well as on the internationally led PRT side.
    What we have found, though, is that the PRTs have been 
insufficiently staffed, not so much by the uniform military, 
but the institutions, Federal institutions of our Government. 
Department of Agriculture, Department of State, USAID have not, 
in the past, consistently provided the personnel resources and 
expertise that was, were determined on the front end of the PRT 
arrangement.
    I am pleased to say, though, I have now been able to see 
some evidence that the institutions are providing a better 
response. We are not there yet. A part of that response is, in 
fact, the civilian surge, or civilian uplift, as we say.
    We are conducting an audit of the civilian uplift to 
determine if, in fact, the policy under which the civilian 
uplift and surge have been implemented measures up to the 
effect that we expect that instrument of support to 
reconstruction should have.
    Mr. Rohrabacher. Thank you, General, I appreciate that. And 
if you can provide some specifics in writing to me on the PRTs 
that you just stated. See, I happen to believe that is where 
the progress is going to come from. Because PRTs go right down 
to the local level, and you have direct interaction, and you 
have a disbursement of funds by a military officer, rather than 
contractors or non-military officers. Or at least a military 
officer overseeing it in that local area.
    So I am very interested in that. And thank you for that 
answer. I am looking forward to, as I say, working with you in 
the years ahead, or months ahead at least.
    Mr. Fields. Thank you, sir.
    Mr. Carnahan. Thank you. And I just wanted to close up with 
a couple of questions, one really following up on the 
corruption discussion that you had, and also about staffing.
    The survey that was put out earlier this year by the U.N. 
said that 60 percent of Afghans thought that corruption was 
their biggest concern. That one Afghan out of every two had to 
pay at least one kickback to a public official. The average 
bribe was $160, and that the one quarter of the, this was one 
quarter of the country's GDP, they paid out over $2.5 billion 
in bribes in the last 12 months. That is equivalent to the 
revenue accrued by the poppy trade, of about $2.8 billion.
    So the magnitude of this is staggering. And, you know, your 
job is staggering, in terms of trying to get a handle on that 
and assess that. But, you know, your job I think is to shine a 
light on the problems there, to arm us with information, to 
help make the best policy and funding decisions we can from 
where we sit. And we absolutely want and need you to succeed.
    And so I guess I would like you to comment on addressing 
the corruption issue that seems endemic, and also address the 
staffing levels for the Inspector General's Office, efforts to 
be sure that we are not duplicating what other agencies are 
doing.
    But the bottom-line question: Do you have the staffing and 
resources you need to provide the information that Congress was 
looking for going forward?
    Mr. Fields. Thank you, sir. Let me say that the Congress 
has been forthcoming in providing resources for my office.
    While on the front end of the stand-up of this SIGIR 
office, we did not have really a penny. When I was appointed on 
the 22nd, when I was sworn in on the 22nd of July in 2008, this 
organization had absolutely no money.
    But by October/November of that same year, Congress did 
make available $2 million in one instance, in another, $5 
million, followed up by another $9 million. So we essentially 
worked for 1 year building this organization from scratch with 
about $16 million.
    But I am pleased to say that for this year, as well as for 
year 2011, we have about $35 million to build this organization 
to 132, primarily of investigators and auditors, about a third 
of whom will be stationed in Afghanistan. So we are poised to, 
I think, conduct the work that we have been designed to do.
    We are being asked to do more than we really have a 
capability. We have been asked to participate in the provincial 
oversight issue or mechanism of the Government of Afghanistan. 
To this extent we have made a request for an additional $14 
million to help in that regard. That would increase by almost 
twice the current number of auditors that we have.
    We don't know whether or not this measure will find its way 
completely through the Congress, but I do bring that to your 
attention as a measure of funding for which we have made a 
request. And we would certainly put to good use, were the 
Congress to find that it should be appropriated on behalf of 
SIGIR.
    In terms of corruption, I honestly will tell this Congress 
that I don't believe that in advance of year 2009, that we paid 
very much attention to the, an anti-corruption program in 
Afghanistan as a part of our reconstruction effort. But I am 
pleased to say that over the last year, and especially in the 
past 6 months, after seeing considerable activity in that 
regard, I am inclined to say that some of that activity has 
been generated by the very audits that SIGIR has conducted. 
Specifically, the audit of the Control and Audit Office, as 
well as the audit of the High Office of Oversight.
    So the Embassy is working with the Government of 
Afghanistan, the international community is working with the 
Government of Afghanistan, both in providing expertise, as well 
as monetary resources, to raise this country up from 179 or so 
in terms of where it stands on the hierarchy, if you will, of 
anti-corruption, or corruption, to something much, much better 
than that.
    I am very disappointed, Mr. Chairman and Ranking Member 
Rohrabacher, that after we have spent essentially $50 billion, 
we still have a country that is almost at the bottom of the 
list in terms of corruption.
    Mr. Carnahan. Thank you. And we have just a few minutes 
left, and I am going to yield to Mr. Ellison for the last 
questions.
    Mr. Ellison. General, I just have a very brief, and even 
simple, question, and even a simplistic question. But I would 
just like to ask you your views on, as we approach this issue 
of addressing corruption, what are some of the key things you 
think that the United States Government could do to help? I 
mean some of the key things to really promote a greater 
environment of transparency and accountability on behalf of our 
Afghan partners?
    Mr. Fields. Thank you for your question, sir. What is it 
that the United States can do? I think we are already doing a 
lot. But I am disappointed to say that in terms of our 
financial investment in Afghanistan in shoring up the 
institutions of Afghanistan, where I think much of the future 
of fighting anti-corruption begins.
    We must have strong institutions. We must have systems and 
controls in place at the highest level of any government, 
particularly the one about which we are concerned at this point 
in time, and that is Afghanistan. We must have those mechanisms 
at the top of the government.
    We are working with the Control and Audit Office, and with 
the High Office of Oversight. We have spent $27 billion 
associated with the Afghanistan Security Forces. All of these 
mechanisms I feel come together to I think, sir, answer your 
question as to where are we helping to take Afghanistan when it 
comes to fighting this corruption that exists in their 
institutions and among their populace.
    Mr. Carnahan. Thank you, Inspector General. And we are 
going to have to wrap up. And Mr. Rohrabacher, you had a quick 
closing?
    Mr. Rohrabacher. Thank you very much. That is it.
    Mr. Carnahan. Okay. Thank you. We will certainly follow up. 
We appreciate your service. We want you to succeed in what you 
are doing, so that we can make the best decisions possible. 
Thank you very much.
    Mr. Fields. Thank you, Mr. Chairman.
    [Whereupon, at 10:54 a.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




                                 <all>

</pre></body></html>
